APPLICATION AND
SOLICITATION
DISCLOSURE

SIGNATURE REWARDS VISA/SMART REWARDS VISA/PLATINUM
VISA-VARIABLE/PLATINUM MASTERCARD-VARIABLE/SECURED VISA

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Smart Rewards Visa

8.75% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Visa- Variable

6.49% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Mastercard- Variable

6.49% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Secured Visa

6.00% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
MAX Signature Visa Rewards

10.50% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00101679-MXC10-C-1-060321 (MXC102-E)

APR for Balance Transfers

Smart Rewards Visa
0.00% Introductory APR for six months from account opening.
After that, your APR will be 8.75% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Visa- Variable
0.00% Introductory APR for six months from account opening.
After that, your APR will be 6.49% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Mastercard- Variable
0.00% Introductory APR for six months from account opening.
After that, your APR will be 6.49% to 18.00%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Secured Visa
6.00% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Cash Advances

MAX Signature Visa Rewards
10.50% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Smart Rewards Visa
8.75% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Visa- Variable
6.49% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Platinum Mastercard- Variable
6.49% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Secured Visa
6.00% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
MAX Signature Visa Rewards
10.50% to 18.00%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00101679-MXC10-C-1-060321 (MXC102-E)

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
1.00% of each transaction in U.S. dollars
Up to $25.00
None
Up to $29.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Smart Rewards Visa, Platinum Visa- Variable, Platinum MastercardVariable:
The Introductory APR for balance transfers will apply to transactions posted to your account during the first 60 days
following the opening of your account. Any existing balances on MAX Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of:
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Smart Rewards Visa, Platinum Visa- Variable, Platinum Mastercard- Variable,
Secured Visa and MAX Signature Visa Rewards are secured credit cards. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Other Fees & Disclosures:
Late Payment Fee:
5.00% of the amount of the required minimum payment, if you are one or more days late in making a payment. However,
the fee will never be less then $0.50, and will not exceed $25.00.
Returned Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less.
Pay-by-Phone Fee:
$5.00.
Rush Fee:
$5.00.
Statement Copy Fee:
$2.00 per document.
Mastercard is a registered trademark, and the circles design is a trademark of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00101679-MXC10-C-1-060321 (MXC102-E)

